Case 7:19-cr-00270-DC Document 43 Filed 02/12/20 Page 1 of 5

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
MIDLAND/ODESSA DIVISION
UNITED STATES OF AMERICA,
v.
(1) DARIO REYES-TORRES,
Defendant.

§
§
§
§
§
§

MO:19-CR-00270-DC

ORDER ADOPTING REPORT AND RECOMMENDATION
BEFORE THE COURT is United States Magistrate Judge Ronald C. Griffin’s Report
and Recommendation (R&R) issued and entered on January 24, 2020, in connection with
Defendant Dario Reyes-Torres’ (Defendant) Motion to Dismiss Indictment (Motion) filed on
January 7, 2020. (Docs. 15, 30). Defendant filed a timely objection to the R&R on February 5,
2020. (Doc. 38). After due consideration of the parties’ filings, the record, and the applicable
law, the Court ADOPTS the R&R in its entirety (Doc. 30), OVERRULES Defendant’s
objections (Doc. 38), and DENIES Defendant’s Motion (Doc. 15).
On December 18, 2019, Defendant was indicted in a one-count Indictment for being an
alien in possession of a firearm, in violation of 18 U.S.C. §§ 922(g)(5) and 924(a)(2).1 (Doc. 8).
On January 7, 2020, Defendant filed his Motion seeking dismissal of the Indictment on the basis
that 18 U.S.C. § 922(g)(5) violates the Second Amendment facially and as applied to Defendant.
(Doc. 15). On the same day, Defendant filed twelve (12) exhibits in support of his Motion.
(Doc. 16). This Court referred the Motion to the Magistrate Judge on January 9, 2020. (Doc 19).
Finally, the Government filed a timely Response on January 19, 2020. (Doc. 21).

1. A Superseding Indictment was filed on January 29, 2020, after the Magistrate Judge issued his R&R. (Doc. 32).
However, the Superseding Indictment does not affect the outcome of Defendant’s Motion.

20-50476.149

Case 7:19-cr-00270-DC Document 43 Filed 02/12/20 Page 2 of 5

The Magistrate Judge issued the instant R&R on January 24, 2020. (Doc. 30). The
Magistrate Judge notes that Defendant concedes that the Fifth Circuit foreclosed his argument
that the Second Amendment extends to persons illegally present in the United States. Id. at 2.
Based on Fifth Circuit precedent, the Magistrate Judge finds that “illegal aliens do not fall within
the scope of ‘the people’ guaranteed the right to bear arms by the Second Amendment.” Id. at 3.
Thus, the Magistrate Judge recommends denying Defendant’s Motion.
A party may contest the report and recommendation by filing written objections within
fourteen (14) days of being served with a copy of the report and recommendation. See 28 U.S.C.
§ 636(b)(1). A party’s objections to an R&R entitle him to a de novo review of those claims by
this Court. See 28 U.S.C. § 636(b)(1). However, objections must specifically identify those
findings or recommendations to which objections are being made. The Court need not consider
frivolous, conclusive, or general objections. See Battle v. United States Parole Comm’n, 834
F.2d 419 (5th Cir. 1987).
Defendant filed timely objections to the R&R. (See Doc. 38). Defendant first objects to
the Magistrate Judge’s finding that the Second Amendment does not protect people unlawfully in
the United States. Id. at 1. Defendant argues that United States v. Portillo-Munoz, 643 F.3d 437
(5th Cir. 2011), to the extent it holds that illegal aliens are not protected by the Second
Amendment, contravenes D.C. v. Heller, 554 U.S. 570 (2008). In addition, Defendant alleges
that Portillo-Munoz does not address the Fifth Amendment’s Equal Protection Clause. Id. at 1–2.
Further, Defendant contends the Magistrate Judge “erred in not reviewing Congress’ relatively
recent exclusion of persons identified in § 922(g)(5) because the term ‘alien illegally and
unlawfully in the United States’ was nonexistent and completely unknown to the Founders in
1791.” Id. at 2. Defendant next objects to the Magistrate Judge’s alleged failure to address

2
20-50476.150

Case 7:19-cr-00270-DC Document 43 Filed 02/12/20 Page 3 of 5

whether § 922(g)(5) is unconstitutional under the Second Amendment as applied to Defendant.
Id. at 3. Finally, Defendant requests a hearing in relation to the second objection.
Defendant triggered de novo review as to the listed objections.
A. First Objection
The Fifth Circuit’s decision in Portillo-Munoz is the subject of Defendant’s first
objection. (Doc. 38 at 1–3). In Portillo-Munoz, the Fifth Circuit, relying on Heller, held that the
Supreme Court’s “language in Heller invalidate[d the defendant]’s attempt to extend the
protections of the Second Amendment to illegal aliens.” See Portillo-Munoz, 643 F.3d at 440.
The Fifth Circuit reasoned that “[i]llegal aliens are not ‘law-abiding, responsible citizens’ or
‘members of the political community,’ and aliens who enter or remain in this country illegally
and without authorization are not Americans as that word is commonly understood.” Id. As noted
previously, it is Defendant’s position that Portillo-Munoz contradicts Heller and that it is
inapplicable here because it did not address the defendant’s Fifth Amendment argument. Id.
As to Defendant’s first argument—that the Second Amendment protects all people
without regard to their legal status—the Court finds that Portillo-Munoz forecloses Defendant’s
argument. See Portillo-Munoz, 643 F.3d at 440; accord United States v. Mirza, 454 F. App’x.
249, 257 (5th Cir. 2011) (“Portillo-Munoz therefore requires us to conclude that the rights
conferred by the Second Amendment do not extend to individuals like [the defendant] who are
unlawfully in the United States.”). To the extent that Defendant invites this Court to depart from
Fifth Circuit precedent, the Court declines the invitation as Defendant provides no reasonable
basis for finding Portillo-Munoz does not comport with Heller.2

2. After reviewing the Supreme Court’s decision in Heller, the Court opines that Portillo-Munoz does not directly or
indirectly depart from Heller. Compare Portillo-Munoz, 643 F.3d at 437, with Heller, 554 U.S. at 570.

3
20-50476.151

Case 7:19-cr-00270-DC Document 43 Filed 02/12/20 Page 4 of 5

The Court further finds Defendant’s second argument—that Portillo-Munoz does not
address the Fifth Amendment’s Equal Protection Clause—unavailing. Defendant fails to
articulate how § 922(g)(5) violates the Fifth Amendment’s Equal Protection Clause. (See
Doc. 38). Defendant’s objection read liberally in his favor at most argues that § 922(g)(5)
discriminates based on alienage. In an unpublished decision, the Fifth Circuit concluded that
“there is a rational relationship between Section 922(g)(5)(A) and a legitimate government
purpose.” See Mirza, 454 F. App’x. at 258. Thus, it rejected the defendant’s contention that
§ 922(g)(5) violates the Equal Protection Clause under the Fifth Amendment. Id. The Fifth
Circuit noted that the defendant, in that case, failed to carry “his burden of showing that there is
not a rational relationship between the challenged classification and some legitimate government
purpose.” Id. Similarly, Defendant’s objection currently before the Court does not explain the
basis for his Fifth Amendment Equal Protection Clause argument. (See Doc. 38).
For the reasons detailed above, the Court overrules Defendant’s first objection.
B. Second Objection
Defendant titles his second objection “the ‘as-applied’ challenge.” (Doc. 38 at 3). He
argues that even if the facial challenge fails, § 922(g)(5) is unconstitutional under the Second
Amendment as applied to Defendant. Id. Defendant contends that the Fifth Circuit’s justification
for its decision in Portillo-Munoz does not apply to Defendant who is an “honors graduate of
Rankin High School, a home-owner, whose children are American citizens and attend the Rankin
School District, who is and has been for many years gainfully employed, pays his federal income
taxes and uses a rifle for protection of his home and ranch in rural Upton County, traditionally
lawful activities, 45-minutes from the local law enforcement in Ranking[.]” Id. at 4.

4
20-50476.152

Case 7:19-cr-00270-DC Document 43 Filed 02/12/20 Page 5 of 5

The Portillo-Munoz decision unequivocally holds that “the phrase ‘the people’ in the
Second Amendment of the Constitution does not include aliens illegally in the United
States . . . .” See Portillo-Munoz, 643 F.3d at 442. It does not differentiate between illegal aliens
who are allegedly upstanding citizens and those who are not. The focus is on the person’s legal
status. The Court thus finds Defendant’s argument regarding Defendant’s character irrelevant
and overrules Defendant’s second objection.
C. Request for a Hearing
Defendant requests a hearing to “fully develop the record for the ‘as-applied’ analysis.”
(Doc. 38 at 5). However, because the Court finds Defendant’s “as-applied” objection is without
merit, as explained above, a hearing is not necessary. Consequently, the Court denies
Defendant’s request for a hearing.
*

*

*

Based on the foregoing, the Court OVERRULES Defendant’s objections (Doc. 38) and
ADOPTS the R&R in its entirety (Doc. 30).
The Court ORDERS that Defendant’s Motion to Dismiss be DENIED. (Doc. 15).
It is so ORDERED.
SIGNED this 12th day of February, 2020.

DAVID COUNTS
UNITED STATES DISTRICT JUDGE

5
20-50476.153

